I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

H A T U M, NI D A L A H M E D W A K E D
P etiti o n er
vs.

N o:

2 0- 1 3 7 0

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
A pril 0 5, 2 0 2 1
c c:
H O W A R D MI L T O N S R E B NI C K
B L A C K S R E B NI C K K O R N S P A N &
ST U MPF P A
2 0 1 S. BI S C A Y N E B O U L E V A R D
S UI T E 1 3 0 0
MI A MI, F L 3 3 1 3 1

